APPENDIX

APPENDIX
TABLE OF CONTENTS
Appendix A

Kansas Supreme Court Opinion
(May 1st, 2020)

1

Appendix A

*

O Cited
As of: August 13, 2020 12:46 AM Z

State v. Craig
Supreme Court of Kansas
May 1, 2020, Opinion Filed
No. 119,660
Reporter
462 P.3d 173 *; 2020 Kan. LEXIS 37 **
STATE OF KANSAS, Appellee, v. JOSEPH J. CRAIG, Appellant.

Prior History: [**1] Appeal from Geary District Court; STEVEN L. HORNBAKER, judge.

Disposition: Affirmed.

Case Summary
Overview
HOLDINGS: [1]-Defendant's two murder verdicts were not inherently irreconcilable because premeditated murder
and felony murder were separate theories of the same offense under Kan. Stat. Ann. $ 21-5402(d) (2019 Supp.),
and second-degree intentional murder was not mutually exclusive from premeditated murder, but simply a lesser
degree of the same offense; [2]-lt was not appropriate to give a voluntary intoxication instruction because nothing in
the record pointed to memory loss or inability to recall events before or during the commission of the crimes. When
he pulled the trigger, defendant was capable of processing that the gun misfired and recover from that with another
attempt.

Outcome
Judgment affirmed.

Syllabus

Page 2 of 9
462 P.3d 173, *173; 2020 Kan. LEXIS 37, **1

' BY THE COURT
1. When reviewing jury instructions, an appellate court considers all the instructions together as a whole and does
not isolate any one instruction.
2. A court need not give a voluntary intoxication instruction unless sufficient proof exists to establish intoxication to
the extent of impairing the defendant's ability to form the requisite intent for the charged crime.
Counsel: Ryan J. Eddinger, of Kansas Appellate Defender Office, was on the brief for appellant.
Jason B. Oxford, assistant county attorney, Krista Blaisdell, county attorney, and Derek Schmidt, attorney general,
were on the brief for appellee.

Judges: BILES, J. MICHAEL E. WARD, Senior Judge, assigned.1
Opinion by: BILES

Opinion
[*175] The opinion of the court was delivered by
Biles, J.: A jury found Joseph J. Craig guilty of both first-degree felony murder and second-degree intentional
murder for a homicide that occurred under the guise of a drug transaction. In this direct appeal, Craig claims the
district court erred when it sentenced him on the more serious felony murder instead of declaring a mistrial because
the jury convicted him of two murder offenses for the same killing. [**2] He also argues the court should have given
an instruction on voluntary intoxication since there was testimony he drank alcohol and smoked marijuana before
he fired the three gunshots that killed his victim. We affirm.

Factual and Procedural Background
Craig, Gabrielle Williams, Robyn Brown, and a fourth person were drinking alcohol and smoking marijuana one
evening at Williams' apartment in Junction City. Williams proposed robbing David Phillips by luring him there for a
drug transaction. She thought someone in the group could get Phillips' gun, take his money and marijuana at
gunpoint, and then kill him. The fourth person did not want to be involved, so he left. Later that night, Williams
texted Phillips to invite him over.
When he arrived, the four smoked marijuana in the bedroom. Williams sat on Phillips' lap. She told him his gun was
poking her, so he put it on the floor with his black Carhartt jacket. While he was rolling a marijuana joint, Williams
got the gun. Shortly after that, Craig went into the bathroom and Williams followed with the gun. Craig asked if she
was "ready to go through with the plan." She shook her head indicating "no."

1 REPORTER'S NOTE: Senior Judge Ward was appointed to hear case No. 119,660 under the authority vested in the Supreme
Court by K.S.A. 20-2616 to fill the vacancy on the court by the retirement of Chief Justice Lawton R. Nuss.

Page 3 of 9
462 P.3d 173, *175; 2020 Kan. LEXIS 37, **2
When the two returned, Phillips was still [**3J rolling a joint and had his head down. Craig put the gun to Phillips'
head and pulled the trigger, but it misfired. Hearing the clicking sound, Phillips looked up and asked Craig to give
back his gun. The two men went into the living room. According to Brown, Phillips seemed to think it was some kind
of joke. Craig again pointed the gun at Phillips, telling him to get down.
At that moment, Williams grabbed Phillips' backpack with marijuana in it and jumped out the window. Brown left
through the front door. She saw Phillips kneeling and Craig hovering over him with the gun. After she got out,
Brown smoked a cigarette in the parking lot and saw Craig fire three shots into Phillips' head. Williams heard the
gunshots while running away.
Junction City police discovered Phillips' black Carhartt jacket at Craig's residence. Witnesses indicated Phillips was
wearing it when he went to Williams' apartment the night he was killed. The jacket had both Craig's and Phillips'
DNA on it.
[*176] The State charged Craig with first-degree murder under theories of premeditated murder and felony
murder, conspiracy to commit first-degree premeditated murder, aggravated robbery, conspiracy to commit
aggravated robbery, [**4] and criminal possession of a firearm by a convicted felon. At trial, the district court
instructed the jury on the charged crimes, as well as second-degree intentional murder as a lesser included offense
of first-degree premeditated murder. The jury returned guilty verdicts on all charges except premeditated murder.
For the homicide, the jury convicted him of both felony murder and second-degree intentional murder.
;
_

At sentencing, the court dismissed the second-degree murder conviction. It sentenced Craig to life without the
possibility of parole for 25 years for the felony-murder conviction and an additional 537 months in prison for the
remaining convictions. Craig directly appeals to this court. Jurisdiction is proper. See K.S.A. 2019 Sudd. 22-3601(b)
(life sentence cases permitted to be directly taken to Supreme Court); K.S.A. 60-2101 (b) (Supreme Court
jurisdiction over direct appeals governed by K.S.A. 2019 Sudd. 22-3601).

The Two Murder Convictions for the Same Killing
Craig claims the court erred in its handling of the jury's guilty verdicts for felony murder and second-degree
intentional murder. First, he argues his due process rights were violated because the jury in his view must have had
a reasonable doubt about both the premeditation and felony-murder [**5] theories because it found him guilty of
second-degree intentional murder. He bases this on the wording of Instruction No. 14. It stated: "If you have a
reasonable doubt about the guilt of the defendant as to the crime of murder in the first degree on both theories, then
consider whether the defendant is guilty of murder in the second degree."
Second, he contends that after the jury was discharged, these two guilty findings were "legally irreconcilable," so
the only remedy was to order a new trial. For this, Craig relies on K.S.A. 22-3421 ("If the verdict is defective in form
only, it may be corrected by the court, with the assent of the jury, before it is discharged.") and State v. Hernandez.
294 Kan. 200. 205. 273 P.3d 774 (2012) (when faced with inconsistent verdicts, a trial court has a duty to order the
jury to reconsider and correct its verdicts).

Additional facts
At trial, the district court instructed the jury on (1) felony murder, (2) premeditated murder, and (3) intentional
second-degree murder as a lesser included offense of premediated murder.
Instruction No. 14 addressed the State's two theories for first-degree murder; it stated:
"The State has charged the defendant with one offense of murder in the first degree and has introduced
evidence on two [**6] theories of proving this crime.

Page 4 of 9
462 P.3d 173, *176; 2020 Kan. LEXIS 37, **6
"When evidence is presented on the two theories of proving the crime charged, you must consider both
theoriesjn arriving at your verdict.
"In Instruction No. 13, the Court has set out the claims that must be proved by the State before you may find
the defendant guilty of premeditated murder.
"In Instruction No. 12, the Court has set out the claims that must be proved by the State before you may find
the defendant guilty of the killing of a person while the defendant was committing or attempting to commit
aggravated robbery.
"If you do not have a reasonable doubt from all the evidence that the State has proven murder in the first
degree on either or both theories, then you should enter a verdict of guilty.
"If you have a reasonable doubt about the guilt of the defendant as to the crime of murder in the first degree on
both theories, then consider whether the defendant is guilty of murder in the second degree.” (Emphases
added.)
Instruction No. 15 alerted the jury about the lesser included offense of second-degree murder. It stated,
"The offense of premeditated murder in the first degree with which defendant is [*177] charged includes the
lesser offense of murder in [**7] the second degree.
"You may find the defendant guilty of first degree murder, second degree or not guilty.
"When there is a reasonable doubt as to which of two or more offenses defendant is guilty, he may be
convicted of the lesser offense only."
. Instruction No. 16 addressed the elements of second-degree murder, providing:
"If you do not agree that the defendant is guilty of premeditated murder in the first degree, you should then
consider the lesser included offense of murder in the second degree.
"To establish this charge, each of the following claims must be proved:
"1. The defendant intentionally killed David Phillips.
"2. This act occurred on or about the 25th day of January, 2016, in Geary County, Kansas." (Emphasis added.)
Instruction No. 17 described the sequencing of the first-degree murder charge with the second-degree murder
charge, stating:
"The defendant is charged with one offense of premeditated murder in the first degree. This verdict instruction
will guide you on the verdicts you shall consider.
"You may find the defendant guilty of murder in the first degree; or murder in the second degree; or not guilty.
"When there is a reasonable doubt as to which of two or more offenses [**8] defendant is guilty, he may be
convicted of the lesser offense only....
"First, you shall consider whether the defendant is guilty of murder in the first degree. If you find defendant is
guilty of murder in the first degree, the Presiding Juror shall sign the applicable verdict form and, in addition,
you shall then determine the alternative theory or theories contained in [verdict form] Number 5, Number 6 or
Number 7....
"Second, if you do not find the defendant guilty of murder in the first degree, you should then consider the
lesser offense of murder in the second degree as defined in Instruction No. 16.
"Third, if you do not find the defendant guilty of second degree murder, you shall find defendant not guilty."
(Emphases added.)
Shortly after discharging the jury, the district court questioned the two murder verdicts, saying "I think that we need
to talk about that. Maybe not today. But I want the parties to determine and maybe do a little research on where that
puts us."

Page 5 of 9
462 P.3d 173, *177; 2020 Kan. LEXIS 37, **8
At sentencing, the court revisited the issue. Craig moved for a new trial and judgment notwithstanding the verdict.
He insisted the jury must have had reasonable doubt on both first-degree murder theories because [**9] it
convicted him of second-degree murder. He based this on Instruction No. 14's wording. The State contended the
felony-murder conviction should stand and serve as the basis for sentencing. It also argued the court should not
dismiss the second-degree murder conviction. Instead, the State contended the court should just not sentence him
on that conviction.
The district court decided the jury must have misunderstood the instructions because they were each legally
appropriate. It dismissed the second-degree murder conviction over the State's objection and sentenced Craig for
the felony murder over his objection. The State does not cross-appeal the dismissal of the second-degree murder
conviction, so that action is not before us.

Standard of review
This issue presents solely a question of law, making de novo review appropriate. See State v. Sprung, 294 Kan.
300. Svl. 112, 277 P.3d 1100 (2012) ("Whether convictions are multiplicitous is a question of law subject to de novo
review."); State v. McKissack. 283 Kan. 721. 733, 156 P.3d 1249 (2007) (noting "the issue of inconsistent verdicts"
and the question of "whether such inconsistency warrants the relief requested" are legal questions).

Discussion
We review-jury instructions as a whole and do not isolate any one instruction. [*178] State v. Sisson. 302 Kan.
123. 130-31, 351 P.3d 1235 (2015). If the instructions properly and [**10] fairly state the law as applied to the facts
in a case, and the jury could not have been reasonably misled by them, those instructions will not result in
reversible error even if they were in some manner erroneous. State v. Brice. 276 Kan. 758, 761, 80 P.3d 1113
(2003).
The elements of felony murder are: (1) "the killing of a human being" and (2) that killing is "committed ... in the
commission of, attempt to commit, or flight from any inherently dangerous felony." K.S.A. 2019 Suoo. 215402(a)(2). The elements of second-degree intentional murder are: (1) "the killing of a human being" and (2) that
killing is "committed . . . intentionally." K.S.A. 2019 Sudd. 21-5403(a)(1). The Kansas felony-murder statute only
requires proof that the defendant engaged in dangerous, felonious conduct and that a death occurred as a result of
that conduct. Intent to kill is not an element of felony murder. State v. Patterson. 311 Kan. , 455 P.3d 792. 798
(2020). "It is felonious intent, rather than homicidal intent, that provides the malice and intent required for a firstdegree felony-murder conviction." State v. Seba, 305 Kan. 185. 196. 380 P.3d 209 (2016).
Instruction No. 12 correctly informed the jury about the elements of felony-murder. It stated "[t]o establish [the
felony murder] charge, each of the following claims must be proved: 1. The defendant, or another, killed David
Phillips," and "2. The killing was done [**11] while defendant was committing or attempting to commit aggravated
robbery. ..." As the district court noted, the instructions defining both felony murder and second-degree murder
were legally and factually appropriate. And there is no claim otherwise.
Instruction No. 14 correctly stated that if the jury had a reasonable doubt about Craig's guilt as to the first-degree
murder charge on both theories, then it should consider whether he was guilty of second-degree murder. And
Instructions No. 15, No. 16, and No. 17 indicated if the jury had a reasonable doubt about Craig's guilt for
premeditated murder, then it should consider the second-degree murder crime. See State v. McLinn, 307 Kan. 307.
324. 409 P.3d 1 (2018) (second-degree intentional murder is a lesser included offense of first-degree premeditated
murder); K.S.A. 2019 Sudd. 21-5109(b)(1) (no lesser degrees of felony murder).
But the jury obviously thought it could convict Craig of both felony murder and second-degree murder
simultaneously, despite being told in Instruction No. 14 to consider second-degree murder if it had a reasonable
doubt on both theories of first-degree murder. Such a belief seems plausible given that Instruction Nos. 16 and 17

Page 6 of 9
462 P.3d 173, *178; 2020 Kan. LEXIS 37, **11
told it to consider the second-degree murder offense if it did [**12] not find Craig guilty of premeditated murder.
And, of course, it acquitted him of that offense.
Even so, all instructions were legally correct. The jury's second-degree murder verdict does not prove, as Craig
contends, that the jury must have had a reasonable doubt about the elements of felony murder. Instead, it shows
the jury followed Instruction Nos. 16 and 17 and had a reasonable doubt Craig committed premeditated murder.
The Due Process Clause of the Fourteenth Amendment requires proof beyond a reasonable doubt of each element
of the crime charged. See State v. Douglas. 230 Kan. 744. 745. 640 P.2d 1259 (1982). And for the reasons
explained, the discrepancy Craig asserts does not establish that the jury failed to find each element of the felony
murder beyond a reasonable doubt.
Craig's second argument asserts that a new trial is required because the verdicts were irreconcilable. It fails as well.
In the case Craig relies on, Hernandez. 294 Kan, at 207. there were irreconcilable verdicts when a jury convicted
the defendant of both aggravated indecent liberties with a child and attempted aggravated indecent liberties with a
child based on the same conduct. 294 Kan, at 205-06. The Hernandez court held those verdicts were "legally and
factually inconsistent” because "[t]he trial court could not legally enter judgment on either [**13] verdict because
the jury's finding on the other verdict precludes such judgment." 294 Kan, at 207. It determined the trial court erred
by assuming [*179] it reconciled the conflicting verdicts at sentencing "as if the charges had been brought in the
alternative, or as if the charges merged so that the defendant was only convicted of the greater offense." 294 Kan,
at 207. The Hernandez court held the trial court should have ordered the jury to reconsider and correct its verdicts.
294 Kan, at 204-05. And since that did not happen, the court reversed the convictions and remanded the case for a
new trial. 294 Kan, at 207.
But unlike Hernandez. Craig's two murder verdicts are not inherently irreconcilable. See 294 Kan, at 204 ("It is a
legal impossibility to both attempt the commission of a crime and complete the commission of the same crime,
because the failure to complete commission of the crime is an element of attempt."). Premeditated murder and
felony murder are separate theories of the same offense, i.e., first-degree murder. State v. Thach. 305 Kan. 72. 87.
378 P.3d 522 (2016V. K.S.A. 2019 Sudd. 21-5402(d) (felony murder is an alternative method of proving murder in
the first degree and is not a separate offense of premeditated murder). And second-degree intentional murder is not
mutually exclusive from premeditated murder, but simply a lesser [**14] degree of the same offense, i.e.,
premeditated murder. McLinn. 307 Kan, at 324.
We also note the district court did not err by discharging the jury without having it clarify its verdict, as Craig's
appellate brief might be read to suggest. See K.S.A. 22-3421 ("If the verdict is defective in form only, it may be
corrected by the court, with the assent of the jury, before it is discharged."). As discussed above, there was no
defect because the jury found each required element of both offenses. And since Craig cites K.S.A. 22-3421. but
offers no rationale why these circumstances implicate it, we hold there was no defect in form. The instructions
permitted the jury to end up where it did. K.S.A. 22-3421 has no application here.
To sum up, Craig fails to demonstrate either claim: that his first-degree murder sentence was imposed in violation of
his due process right to have the jury find each element of the offense beyond a reasonable doubt, or that the jury's
first-and second-degree murder verdicts were so irreconcilable as to require a new trial. The court properly
sentenced Craig on the first-degree felony-murder conviction. See State v. Harris. 310 Kan. 1026. 453 P.3d 1172
(2019) (upholding the district court's imposition of sentence on a more severe crime when jury convicted defendant
of two offenses [**15] based on the same criminal act).

The Voluntary Intoxication Instruction
Craig claims the evidence about his use of alcohol and marijuana and unclear communication shortly before the
shooting made it appropriate to give a voluntary intoxication instruction. We disagree.

Standard of review

Page 7 of 9
462 P.3d 173, *179; 2020 Kan. LEXIS 37, **15
An appellate court reviews instructional error claims in multiple steps. First, it decides whether the issue was
properly preserved. Second, it considers whether the instruction was legally and factually appropriate. It exercises
unlimited review of these questions. And when the reviewing court finds error, it considers whether that error is
reversible. State v. Gentry, 310 Kan. 715. 720. 449 P.3d 429 (2019).
If the defendant failed to properly request the instruction in the district court, the clearly erroneous standard applies
to whether an instructional error is reversible. See K.S.A. 2019 Sudd. 22-3414(3) ("No party may assign as error the
giving or failure to give an instruction . . . unless the party objects thereto before the jury retires to consider its
verdict stating distinctly the matter to which the party objects and the grounds of the objection unless the instruction
or the failure to give an instruction is clearly erroneous."); State v. Murrin. 309 Kan. 385. 392. 435 P.3d 1126 (2019)
(clear error for unpreserved instructional [**16] error claim). Craig agrees he did not request this instruction during
trial.

Discussion
While not a defense to general intent offenses, voluntary intoxication may be used to negate the intent element of
specific intent [*180] crimes. Seba, 305 Kan, at 211. K.S.A. 2019 Sudd. 21-52Q5(b) declares:
"An act committed while in a state of voluntary intoxication is not less criminal by reason thereof, but when a
particular intent or other state of mind is a necessary element to constitute a particular crime, the fact of
intoxication may be taken into consideration in determining such intent or state of mind."
Craig claims a voluntary intoxication instruction would have been legally appropriate for the charged offenses of
premeditated murder, second-degree murder, conspiracy to commit premeditated murder, and conspiracy to
commit aggravated robbery. Of those, premeditated murder and second-degree intentional murder are specific
intent crimes. State v. Overstreet. 288 Kan. 1. 11. 200 P.3d 427 (2009) ("The specific intent required to be proved
for conviction on a premeditated first-degree murder charge is premeditation."'); State v. Deal. 293 Kan. 872. 883.
269 P.3d 1282 (2012) (intentional second-degree murder is a specific intent crime). But the remaining conspiracy
offenses are not as obvious, and they are the only convictions that could be affected by this [**17] appeal.
Some caselaw undercuts Craig's claim that conspiracy to commit aggravated robbery is a specific intent crime. He
relies on State v. Warren. 252 Kan. 169. 174. 843 P.2d 224 (1992). in which the court held conspiracy to commit a
robbery was a specific intent crime. But in State v. Butler. 307 Kan. 831. 852. 416 P.3d 116 (2018). the court held
that the mental state needed to be proved for convicting the defendant for conspiracy to commit aggravated robbery
was "'knowingly.'"
We need not resolve that question, however, because the record demonstrates a voluntary intoxication instruction
was not factually appropriate in Craig's case, so this claim of error fails on that basis. A court need not give a
voluntary intoxication instruction unless sufficient proof exists to establish intoxication to the extent of impairing the
defendant's ability to form the requisite intent for the charged crime. State v. Betancourt. 299 Kan. 131. 141. 322
P.3d 353 (2014): see also State v. Becker. 311 Kan. 176. Svl. H 6. 459 P.3d 173 (2020) (need for "direct evidence"
of impairment in a premeditated first-degree homicide trial). That evidence is lacking in Craig's case.
The trial evidence on which Craig relies comes from the testimony of Williams and Jeremiah Warren, the person
who left before Phillips came to the apartment. Both made passing comments about Craig drinking alcohol and
smoking marijuana the evening Phillips died. [**18] Williams testified everyone was smoking marijuana and
drinking alcohol, and when she was in the bathroom with Craig just before the shooting, he was "mumbling to
himself." But the record is silent about how much marijuana and alcohol Craig consumed or whether this
"mumbling" happened only when he was intoxicated to the level of impairing his ability to form specific intent.
In State v. Hilt 299 Kan. 176. 193, 322 P.3d 367 (2014). the court held evidence pointing to consumption, but not
intoxication to the extent that the defendant's ability to form the requisite intent was impaired, was not enough to
warrant a voluntary intoxication instruction. See Becker. 459 P.3d at 184 (a reviewing court will not infer impairment
based on evidence of consumption alone). And in State v. Kidd. 293 Kan. 591. 596. 265 P.3d 1165 (2011). the

Page 8 of 9
462 P.3d 173, *180; 2020 Kan. LEXIS 37, **18
court held evidence showing the defendant consumed alcohol, made "'crazy' statements" and seemed '"buzzed"'
was insufficient to require a voluntary intoxication instruction. In State v. Hernandez. 292 Kan. 598. 607. 257 P.3d
767 (2011). the court determined evidence of alcohol and marijuana consumption and testimony that the defendant
was "'high' or 'intoxicated'" was not sufficient to require a voluntary intoxication instruction. Similarly, Williams'
testimony is not enough to justify the instruction.
Craig also relies on Warren's statements that [**10] he observed Craig "in an extreme state of intoxication shortly
before the shooting occurred." He points out Warren's testimony that Craig was unable to stand or communicate
clearly. But the record reflects this testimony, when read in context, does not necessarily show Craig was extremely
intoxicated that night. At most, it appears, neutral or ambiguous about Craig’s impairment.
[*181] During his cross-examination, defense counsel asked Warren "how intoxicated was Mr. Craig on that
evening?" He answered, "Pretty drunk. He was sitting down." Counsel then asked "do you mean that he was so
intoxicated he couldn't stand up?" Warren responded "he was on the bed laying down with his eyes closed. I had to
nudge him a little bit to get up. So, I don't know if he was just tired and drunk at the same time, or if he was just that
drunk." This back-and-forth cannot show Craig lacked the ability to form the requisite intent, and Brown's testimony
describing the moment immediately before the killing is also pertinent. She said Craig "was just relaxed, just sitting.
We was [s/'c] all high."
The evidence about Craig's state of mind does not establish any impairment deprived him of the ability to form the
requisite [**20] mens rea. Indeed, other evidence strongly suggests he was not so intoxicated and was able "to
reason, to plan, to recall, or to exercise motor skills." Betancourt. 299 Kan, at 142. For example, when discussing
the plan, according to Williams, he "was stating that he wanted [Phillips'] gun." This suggests he could think and
communicate what he wanted to get by robbing and killing his victim. And by all accounts, Craig was also able to
walk to the bathroom and back to the bedroom without anyone's assistance, meaning he could exercise motor
skills. Craig and Williams discussed their plan before 7 p.m., and he remembered and successfully carried it out
after 11 p.m.
Nothing in the record points to memory loss or inability to recall events before or during the commission of the
crimes. See Betancourt. 299 Kan, at 141 (loss of memory or inability to recall incidents before or during the
commission of the crime may show an inability to form the required intent). When he pulled the trigger, Craig was
capable of processing that the gun misfired and recover from that with another attempt. See 299 Kan, at 142-43
(while there was evidence of consumption of alcohol and cocaine and the defendant's own statement that he was
"'pretty effed up,"' there was other evidence [**21] showing he could mentally and physically function; holding no
error to omit a voluntary intoxication instruction); Hilt. 299 Kan, at 193 (noting evidence showing the defendant was
high and made crazy statement; holding no error based on other evidence suggesting the ability to form specific
intent).
Finally, we observe there was not much made of Craig's intoxication at trial. Defense counsel briefly mentioned
Craig was drunk and high during closing argument but certainly did not argue its significance or any implication to
the jury. Stated differently, Craig never relied on voluntary intoxication in defending himself. See Betancourt. 299
Kan, at 143 (noting defense did not emphasize evidence of intoxication introduced at trial or argue voluntary
intoxication to the jury). His effort to create an alternate reality on appeal is unavailing.
From this record, we hold a voluntary intoxication instruction would not have been factually appropriate.
Affirmed.
MICHAEL E. WARD, Senior Judge, assigned. 1

1 REPORTER'S NOTE: Senior Judge Ward was appointed to hear case No. 119,660 under the authority vested in the Supreme
Court by K.S.A. 20-2616 to fill the vacancy on the court by the retirement of Chief Justice Lawton R. Nuss.

tj

Page 9 of 9
462 P.3d 173, *181; 2020 Kan. LEXIS 37, **21

End of Document

-«

